                  AUDIT REPORT
             REDACTED FOR PUBLIC RELEASE

            Audit of NRC’s Oversight of Irradiator Security


                   OIG-10-A-17 September 2, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
               OFFICIAL USE ONLY – SECURITY RELATED INFORMATION

                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          September 2, 2010



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF IRRADIATOR
                            SECURITY (OIG-10-A-17)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of Irradiator Security.

The report presents the results of the subject audit. Agency comments provided at the
August 2, 2010, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5911.

Attachment: As stated




               OFFICIAL USE ONLY – SECURITY RELATED INFORMATION
                                                  Audit of NRC’s Oversight of Irradiator Security


EXECUTIVE SUMMARY

   BACKGROUND

         Irradiators are devices that expose products, such as food and medical
         supplies, to radiation for sterilization and other purposes. Radiation is
         achieved by the exposure to high-risk radioactive materials, such as
         Cobalt-60 and Cesium-137. Commercial firms, as well as State-run
         organizations such as hospitals and universities, operate irradiators and
         are licensed to possess the radioactive materials used in these devices.

         The U.S. Nuclear Regulatory Commission (NRC) and NRC “Agreement
         States” regulate the safe and secure use of these irradiators and other
         radioactive materials. NRC’s Office of Federal and State Materials and
         Environmental Management Programs develops and implements rules
         and guidance for the safe and secure use of source, byproduct, and
         special nuclear material in industrial, medical, academic, and commercial
         activities, including irradiators.

         In the changed threat environment since the terrorist attacks of
         September 11, 2001, NRC determined that certain licensed material
         should be subject to enhanced security requirements and issued several
         orders to address the security of radioactive materials.

   PURPOSE

         The purpose of this audit was to determine the adequacy of NRC’s
         oversight of industrial irradiator security. Due to the scope of the security
         orders and NRC’s efforts to combine these security orders into one
         section of the Code of Federal Regulations, the audit findings and
         recommendations expand beyond irradiators to address the radioactive
         materials security program as a whole. See Appendix A for information on
         the audit scope and methodology.

   RESULTS IN BRIEF

         While NRC has worked to increase security of irradiators and other
         radiological materials of concern, enhancements in the materials security
         program are needed to better ensure the security of these materials.
                                        i
                                         Audit of NRC’s Oversight of Irradiator Security


Specifically, NRC needs to (1) establish security inspection frequencies
based on a risk-informed approach, (2) enhance access authorization
controls of individuals with unescorted access to materials of concern, and
(3) fully develop the security training program for materials inspectors.

Security Inspection Frequency

The frequency of materials security inspections should be based on a risk-
informed process that takes into account the security risk associated with
the material. Currently, security inspections are based on a licensee’s
safety inspection schedule rather than the risk that the material will be
stolen or exploited for malevolent purposes. The frequency of the security
inspections is not risk-informed because the frequencies established in
Inspection Manual Chapter 2800 do not consider current security risks.
Without a risk-informed approach to the security inspection program,
radioactive materials could be at an increased vulnerability to theft or
sabotage.

Access Authorization Controls




OFFICIAL USE ONLY – PARAGRAPH HAS BEEN REDACTED FOR
PUBLIC RELEASE




Security Training Program

NRC materials inspectors should be provided the tools and training
necessary to make risk-informed decisions to address security, health and
safety, and environmental aspects of licensee compliance. While these
inspectors receive initial training on the security requirements for material
licensees, they do not receive any refresher training to address the
security aspects of their jobs. Although NRC has acknowledged the need

                               ii
                                               Audit of NRC’s Oversight of Irradiator Security


     to incorporate security training into the inspector qualification program, the
     development of a security refresher course has not been a priority.
     Without formalized refresher training, NRC might not be able to ensure
     licensees are adequately protecting materials of concern.

RECOMMENDATIONS

     This report makes recommendations to improve the agency’s radioactive
     materials security program. A consolidated list of these recommendations
     appears in Section IV of this report.

AGENCY COMMENTS

     At an exit conference on August 2, 2010, agency management stated their
     general agreement with the findings and recommendations in this report.
     Agency management also provided supplemental information that has
     been incorporated into this report as appropriate. As a result, the agency
     opted not to provide formal comments for inclusion in this report.




                                    iii
                                         Audit of NRC’s Oversight of Irradiator Security


ABBREVIATIONS AND ACRONYMS

       FSME    Office of Federal and State Materials and Environmental
               Management Programs

       IAEA    International Atomic Energy Agency

       NRC     U.S. Nuclear Regulatory Commission

       OIG     Office of the Inspector General




                               iv
                                                                Audit of NRC’s Oversight of Irradiator Security


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS ................................................... iv

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE ...................................................................................... 4

        III. FINDINGS ...................................................................................... 5

                 A.      REEVALUATION OF SECURITY INSPECTION
                         FREQUENCY IS NEEDED ................................................ 5

                 B.      PROCESS TO REGULARLY CHECK INDIVIDUALS
                         WITH UNESCORTED ACCESS TO MATERIALS OF
                         CONCERN IS NEEDED ..................................................... 9

                 C.      FORMAL MATERIALS SECURITY REFRESHER
                         TRAINING PROGRAM IS NEEDED ................................ 12

        IV. CONSOLIDATED LIST OF RECOMMENDATIONS .................... 15

        V.    AGENCY COMMENTS................................................................. 15


    APPENDIXES

        A. SCOPE AND METHODOLOGY ..................................................... 16

        B. CATEGORY 1 AND CATEGORY 2 QUANTITIES
           OF CONCERN ............................................................................... 18




                                                  v
                                                Audit of NRC’s Oversight of Irradiator Security


I.   BACKGROUND

        Irradiators are devices that expose products, such as food and medical
        supplies, to radiation for sterilization and other purposes. Radiation is
        achieved by the exposure to high-risk radioactive materials, such as
        Cobalt-60 and Cesium-137. Commercial firms, as well as State-run
        organizations such as hospitals and universities, operate irradiators and
        are licensed to possess the radioactive materials used in these devices.

        Figure 1: Illustration of Large Irradiator




        Source: NRC Public Web Site.




                                       1
                                                                Audit of NRC’s Oversight of Irradiator Security


Figure 2:
Small Irradiator                The U.S. Nuclear Regulatory Commission (NRC) and NRC
                                “Agreement States”1 regulate the safe and secure use of
                                these irradiators and other radioactive materials. NRC’s
                                Office of Federal and State Materials and Environmental
                                Management Programs (FSME) develops and implements
                                rules and guidance for the safe and secure use of source,
                                byproduct, and special nuclear material in industrial,
                                medical, academic, and commercial activities, including
                                irradiators. Inspections to ensure compliance with these
                                regulations are conducted by approximately 46 NRC
                                materials inspectors and numerous inspectors within the 37
                                Agreement States. Nationwide, there are approximately 50
                                licensees that operate about 50 large irradiators that contain
                                more than 10,000 curies of Cobalt-60. (See Figure 1 for an
                                illustration of a large irradiator.) Additionally, there are
                                approximately 590 licensees that operate about 1,100
                                smaller type irradiators that use lesser quantities of
                                radioactive materials. (See Figure 2 for a picture of a
                                smaller type irradiator.)

                Materials Inspection Program

                NRC materials inspectors based in NRC’s regional offices2 are
                responsible for ensuring licensee compliance with regulatory safety and
                security requirements. NRC Inspection Manual Chapter 2800, “Materials
                Inspection Program,” outlines NRC’s materials inspection program policy.
                This manual chapter establishes frequencies for routine inspections of all
                licensees, details when poor performance requires increased inspection
                oversight, and addresses other areas of materials oversight. NRC
                Inspection Manual Chapter 1246, “Formal Qualification Programs in the
                Nuclear Material Safety and Safeguards Program Area,” defines training
                and qualification requirements for personnel working within the nuclear
                materials inspection program.

1
 An Agreement State is a State that has assumed regulatory responsibility over certain byproduct,
source, and small quantities of special nuclear material through an agreement with NRC. As of June
2010, 37 States had signed formal agreements with NRC.
2
 These NRC inspectors are located at NRC Regions I, III, and IV. Region II facilities are inspected by
Region I personnel.
                                                    2
                                                                 Audit of NRC’s Oversight of Irradiator Security


                  History of NRC’s Materials Security Oversight

                  NRC regulations provide requirements for the safe use, transport, and
                  control of licensed radioactive material. A licensee’s loss of control over
                  high-risk radioactive material, whether inadvertent or through a deliberate
                  act, has the potential to result in significant harm to public health and
                  safety, the environment, and cause significant economic loss.

                  In the changed threat environment since the terrorist attacks of
                  September 11, 2001, NRC determined that certain licensed material
                  should be subject to enhanced security requirements.3 In developing the
                  enhanced security measures, NRC performed vulnerability assessments
                  to identify gaps or vulnerabilities in security, and the effectiveness and
                  cost of certain physical protection enhancements at various licensed
                  facilities. The vulnerability assessment results were used to develop
                  security orders that were issued to licensees based on the relative risk
                  and quantity of material possessed by the licensee.

                  These security orders specifically address the security of radioactive
                  material possessed in quantities greater than or equal to Category 1 and
                  Category 2 quantities (referred to as “materials of concern” throughout this
                  report).4 Both large and small irradiators contain radioactive materials
                  within the Category 1 and Category 2 quantity thresholds. In June 2003,
                  NRC issued Safeguards Order EA-02-249 to large irradiator licensees that
                  possessed more than 10,000 curies of radioactive material. In November
                  2005, NRC issued Increased Control Order EA-05-090 to smaller
                  irradiator licensees and other licensees authorized to possess Category 1
                  and Category 2 quantities of radioactive material.

                  The Energy Policy Act of 2005 authorized NRC to require all individuals
                  who are permitted unescorted access to “significant” radioactive material
                  to be fingerprinted and undergo a Federal Bureau of Investigation criminal

3
 NRC adopted the International Atomic Energy Agency (IAEA) “Code of Conduct on the Safety and
Security of Radioactive Sources” (Code of Conduct) categorization system for radioactive materials.
Specifically, the IAEA characterizes Category 1 and Category 2 as quantities of radiological materials that
are deemed to be attractive targets for malevolent use and pose the greatest risk to people and the
environment if not safely managed or securely protected. (See Appendix B for information on these
materials and associated thresholds).

4
    As of May 2010, there were approximately 1,400 licensees in these two categories.
                                                     3
                                                  Audit of NRC’s Oversight of Irradiator Security


         history records check. NRC determined that Category 1 and Category 2
         quantities of radioactive material are “significant,” and by December 2007,
         had issued responsive orders to all licensees possessing Category 1 or
         Category 2 quantities of radioactive material.

         In May 2010, NRC proposed adding a new Part 37 to NRC’s regulations in
         Title 10 of the U.S. Code of Federal Regulations to impose security
         requirements for the use of Category 1 and Category 2 quantities of
         radioactive material. The proposed requirements would codify and
         expand upon the previously issued security orders.


II.   PURPOSE

         The purpose of this audit was to determine the adequacy of NRC’s
         oversight of industrial irradiator security. Due to the scope of the security
         orders and NRC’s efforts to combine these security orders into one
         section of the Code of Federal Regulations, the audit findings and
         recommendations expand beyond irradiators to address the radioactive
         materials security program as a whole. See Appendix A for information on
         the audit scope and methodology.




                                       4
                                                      Audit of NRC’s Oversight of Irradiator Security


III.    FINDINGS

              While NRC has worked to increase security of irradiators and other
              radiological materials of concern, enhancements in the materials security
              program are needed to better ensure the security of these materials.
              Specifically, NRC needs to (1) establish security inspection frequencies
              based on a risk-informed approach, (2) enhance access authorization
              controls of individuals with unescorted access to materials of concern, and
              (3) fully develop the security training program for materials inspectors.

       A. Reevaluation of Security Inspection Frequency Is Needed

              The frequency of materials security inspections should be based on a risk-
              informed process that takes into account the security risk associated with
              the material. Currently, security inspections are based on a licensee’s
              safety inspection schedule rather than the risk that the material will be
              stolen or exploited for malevolent purposes. The frequency of the security
              inspections is not risk-informed because the frequencies established in
              Inspection Manual Chapter 2800 do not consider current security risks.
              Without a risk-informed approach to the security inspection program,
              radioactive materials could be at an increased vulnerability to theft or
              sabotage.

              Risk-Informed Process

              The frequency of materials security inspections should be based on a risk-
              informed process that takes into account the security risk associated with
              the material. In 1999, the Commission defined its expectations for risk-
              informed and performance-based regulation. This process is an approach
              in which risk insights, engineering analysis, and performance history are
              used to guide the inspection program. NRC defines risk by asking three
              questions: (1) What can go wrong? (2) How likely is it to happen? and (3)
              What are the consequences?




                                            5
                                                            Audit of NRC’s Oversight of Irradiator Security


               Frequency of Security Inspections Based on Safety Inspection
               Schedule

               Currently, NRC bases security inspections on a licensee’s safety
               inspection schedule rather than the risk that the material will be stolen or
               exploited for malevolent purposes. When Safeguards Order EA-02-249
               was issued in June 2003, initial security inspections were completed within
               a year; however, there was no established frequency as to how often
               subsequent inspections should be conducted to verify licensee
               compliance with this order. After many discussions to try to determine the
               frequency, FSME, the program owner, decided to use the established
               frequency for safety inspections as previously outlined in Inspection
               Manual Chapter 2800.5 Specifically, “priority codes” are assigned to a
               particular radioactive material license (e.g., panoramic/large irradiator,
               self-shielded/small irradiator) based on safety risk. The priority code (i.e.,
               1, 2, 3, or 5) is the interval, expressed in years, between routine
               inspections. The priority represents the relative risk of radiation hazard for
               the type of use. Priority Code 1 presents the greatest risk to the health
               and safety of workers, members of the public, and the environment.
               Priority Code 5 presents the least potential risk.

               Established Frequency Does Not Include Current Security Risk

               The current security inspection frequency is not based on a risk-informed
               approach because the frequencies established by Inspection Manual
               Chapter 2800 do not consider current security risks. According to FSME
               management, NRC used risks to safety, security, and the environment
               when establishing the priority codes; however, FSME established the
               codes prior to 2001 when security threats were viewed differently
               compared to today.

               Prior to September 11, 2001, NRC license requirements focused on
               worker and public safety and preventing inadvertent or accidental
               exposure to radioactive materials. According to NRC, these requirements
               also indirectly provided materials security. Specifically, by protecting
               workers and the public from inappropriate exposure through safety


5
  In November 2005, Increased Control Order EA-05-090 was issued with guidance to conduct
inspections at the frequency established in Manual Chapter 2800.
                                                 6
                                         Audit of NRC’s Oversight of Irradiator Security


requirements, licensees implemented controls that also provided
additional security protection to materials. However, as noted in the
Background section of this report, the events of September 11 prompted
NRC to reevaluate its requirements and the protections needed to prevent
a terrorist from obtaining materials of concern. While NRC subsequently
issued a number of security orders to impose additional controls, the
agency did not update its inspection frequency requirements to
incorporate increased security risks to materials.

Furthermore, in 2007, NRC chartered an independent external review
panel to identify vulnerabilities in the NRC’s materials licensing program
and to validate the agency’s ongoing radioactive materials security efforts.
The panel’s March 2008 report stated that fully integrating security with
health, safety, and environmental protection when regulating radioactive
material would require a culture change at NRC and in the Agreement
States. The report further stated that:

      Security starts with identifying an appropriate level of
      protection based on the type, form, and quantity of
      radioactive material. The processes currently used to
      make risk-informed decisions for health, safety, and
      environmental protection are identical to those used
      to determine risk as it applies to security. The
      strategies for responding to security threats are
      different from the strategies for responding the [sic]
      health, safety, and environmental concerns in that
      they must consider malevolent action.

FSME plans to conduct a pilot inspection program for security inspections
to help determine the appropriate inspection frequency. However, this
pilot program is in its infancy and FSME has yet to define how it will
evaluate the inspection frequency and the methodology for this review.
The FSME Office Director supports an initiative to reevaluate the materials
inspection program taking a risk-informed approach that integrates both
safety and security.

Without a risk-informed approach to the security inspection program,
radioactive materials could be at an increased vulnerability to theft or
sabotage. NRC conducts inspections to ensure licensees are following

                              7
                                       Audit of NRC’s Oversight of Irradiator Security


the security requirements, and by taking a risk-informed approach to
security inspections, NRC can enhance the protection for materials of
concern.

Recommendation

The Office of the Inspector General (OIG) recommends that the Executive
Director for Operations:

1.   Reevaluate and determine the frequency of security inspections
     based on a risk-informed approach.




                             8
                                          Audit of NRC’s Oversight of Irradiator Security


B. Process To Regularly Check Individuals With Unescorted Access to
   Materials of Concern Is Needed




       OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED FOR
       PUBLIC RELEASE




                                 9
                             Audit of NRC’s Oversight of Irradiator Security




OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED FOR
PUBLIC RELEASE




                     10
                                      Audit of NRC’s Oversight of Irradiator Security




OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED FOR
PUBLIC RELEASE




Recommendation

OIG recommends that the Executive Director for Operations:

2.   OFFICIAL USE ONLY – RECOMMENDATION HAS BEEN
     REDACTED FOR PUBLIC RELEASE




                            11
                                                 Audit of NRC’s Oversight of Irradiator Security


C. Formal Materials Security Refresher Training Program Is Needed

       NRC materials inspectors should be provided the tools and training
       necessary to make risk-informed decisions to address security, health and
       safety, and environmental aspects of licensee compliance. While these
       inspectors receive initial training on the security requirements for material
       licensees, they do not receive any refresher training to address the
       security aspects of their jobs. Although NRC has acknowledged the need
       to incorporate security training into the inspector qualification program, the
       development of a security refresher course has not been a priority.
       Without formalized refresher training, NRC might not be able to ensure
       licensees are adequately protecting materials of concern.

       Security Training Requirements

       NRC materials inspectors should be provided the tools and training
       necessary to make risk-informed decisions to address security, health and
       safety, and environmental aspects of licensee compliance. Specifically,
       initial and refresher security training should be provided to all personnel
       involved in the security oversight of materials licensees.

       No Formal Security Refresher Training

       While materials inspectors receive initial training on the materials security
       requirements, they do not receive formal refresher training to address the
       security aspects of their jobs. When NRC issued Safeguards Order
       EA-02-249 to large irradiator licensees, the Commission designed and
       implemented a training course at Sandia National Labs to provide
       instruction on a methodology to evaluate physical protection systems
       associated with the security order. Subsequently, when NRC issued
       Increased Control Order EA-05-090 to the small irradiator licensees, the
       training course was modified to focus on the security controls of this order
       as well. Although Inspection Manual Chapter 1246 does not discuss
       specific security training requirements, NRC materials inspectors generally
       take this initial security training course at Sandia National Labs prior to
       conducting security inspections. However, in the 7 years since NRC
       introduced the security orders, it has neither provided nor required
       additional formal security training courses for the materials inspectors.


                                     12
                                        Audit of NRC’s Oversight of Irradiator Security


Since there is not a formal refresher training course, some regions and
Agreement States have developed their own methods of communicating
information and lessons learned on security aspects. These courses help
ensure consistency within the region or the State; however, without FSME
involvement, there are no assurances that these self-developed refresher
courses meet the intent of the program office.

The regional inspectors conducting materials security inspections have
health physics backgrounds, and in-depth security reviews only became
part of their job function after the introduction of the security orders.
Inspectors interviewed expressed the need for refresher training. OIG
interviewed 22 regional-based employees involved with the materials
security program. Of these 22 employees, 16 expressed the need to have
security refresher training. For example, one inspector stated that
refresher training would be helpful since security inspections are not done
all the time and it is important to be fresh on the inspection procedures
before conducting inspections. Another inspector expressed a desire for
refresher training to help ensure consistency between regions and to allow
lessons learned to be shared across the materials inspector community.

Development of Security Refresher Training Is Not a Priority

While NRC has acknowledged the need to incorporate security training
into the inspector qualification program, the development of a security
refresher course has not been a priority. However, FSME has recently
established a working group to revise Inspection Manual Chapter 1246.
As part of this review, the group will look to make necessary changes to
the training program to provide inspection personnel with the tools and
training necessary to make risk-informed decisions that address security
aspects, as well as health and safety aspects, and to foster a security
culture. The group began meeting in April 2010 and the working group
charter was approved in July 2010.

Additionally, FSME has worked to provide tools for inspectors and others
involved with increased security to discuss concerns and lessons learned.
For example, FSME created the Increased Controls Toolbox as a method
of sharing updated information and clarification about the Increased
Control Order. Individuals can also use this Web portal to ask specific
questions to other toolbox members.

                             13
                                          Audit of NRC’s Oversight of Irradiator Security


Without formalized refresher training, NRC might not be able to ensure
licensees are adequately protecting materials of concern. Specifically,
inspectors might not be able to conduct adequate security inspections
because they may not have a full understanding of the ever-changing
security environment and threats. As materials inspectors continue to
perform inspections, it is critical that they are knowledgeable in all aspects
of security relating to materials of concern, and that NRC implements
security refresher training in the near future.

Recommendation

OIG recommends that the Executive Director for Operations:

3.   Develop and offer periodic refresher training for all individuals
     involved in the materials security program.




                               14
                                                   Audit of NRC’s Oversight of Irradiator Security


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Reevaluate and determine the frequency of security inspections based
             on a risk-informed approach.

          2. OFFICIAL USE ONLY – RECOMMENDATION HAS BEEN
             REDACTED FOR PUBLIC RELEASE

          3. Develop and offer periodic refresher training for all individuals involved
             in the materials security program.

V.    AGENCY COMMENTS

          At an exit conference on August 2, 2010, agency management stated their
          general agreement with the findings and recommendations in this report.
          Agency management also provided supplemental information that has
          been incorporated into this report as appropriate. As a result, the agency
          opted not to provide formal comments for inclusion in this report.




                                        15
                                                 Audit of NRC’s Oversight of Irradiator Security

                                                                                 Appendix A
SCOPE AND METHODOLOGY

       Auditors evaluated the adequacy of NRC’s oversight of industrial irradiator
       security. However, due to the scope of the security orders and NRC’s
       efforts to combine these security orders into one section of the Code of
       Federal Regulations, the audit findings and recommendations expand
       beyond irradiators to address the radioactive materials security program
       as a whole.

       The audit team reviewed relevant criteria, including Safeguards Order EA-
       08-033, Compensatory Measures For Panoramic And Underwater
       Irradiator Licensees, and Increased Controls Order EA-05-090, Increased
       Controls For Licensees That Possess Sources Containing Radioactive
       Material Quantities Of Concern. Additionally, auditors reviewed NRC
       policies, including Inspection Manual Chapter 1246, “Formal Qualification
       Programs in the Nuclear Material Safety and Safeguards Program Area,”
       and Inspection Manual Chapter 2800, “Materials Inspection Program.”

       At headquarters in Rockville, MD, auditors interviewed NRC staff and
       management from FSME and the Office of Nuclear Security and Incident
       Response to gain an understanding of their roles and responsibilities in
       the oversight of industrial irradiator security. Auditors also traveled to and
       interviewed NRC staff and management located in Region I (King of
       Prussia, PA), Region III (Lisle, IL), and Region IV (Arlington, TX) and
       Agreement State officials on their roles and involvement in the oversight
       program.

       We conducted this performance audit from January 2010 through June
       2010, in accordance with generally accepted Government auditing
       standards. Those standards require that the audit is planned and
       performed with the objective of obtaining sufficient, appropriate evidence
       to provide a reasonable basis for any findings and conclusions based on
       the stated audit objective. OIG believes that the evidence obtained
       provides a reasonable basis for the report findings and conclusions based
       on the audit objective. Internal controls related to the audit objective were
       reviewed and analyzed. Throughout the audit, auditors were aware of the



                                      16
                                       Audit of NRC’s Oversight of Irradiator Security


possibility or existence of fraud, waste, or misuse in the program. The
work was conducted by Beth Serepca, Team Leader; Rebecca Underhill,
Audit Manager; Gail Butler, Management Analyst; Michael Blair,
Management Analyst; and Kevin Nietmann, Senior Technical Advisor.




                            17
                                                          Audit of NRC’s Oversight of Irradiator Security

                                                                                          Appendix B


CATEGORY 1 AND CATEGORY 2 QUANTITIES OF CONCERN

             The IAEA “Code of Conduct on the Safety and Security of Radioactive
             Sources” (Code of Conduct) contains a categorization system for
             radiological sources to allow controls to be applied commensurate with the
             radiological risks. The Code of Conduct identified 16 radioactive materials
             that could pose a serious threat to people and the environment and
             furthermore, identified the different quantities or “thresholds” of materials
             that could be useful to a terrorist (i.e., Category 1 and Category 2). Table
             A identifies these materials and the associated thresholds. NRC adopted
             the IAEA Code of Conduct Category 1 and Category 2 threshold quantities
             to provide consistency between domestic and international efforts for
             security of radioactive materials that are deemed to be attractive targets
             for malevolent use.

Table A. Radionuclides of Concern

                                Category 1 Threshold                Category 2 Threshold
   Radioactive Material
                             Terabecquerels          Curies    Terabecquerels             Curies
 Americium-241                     60                 1,620          0.6                   16.2
 Americium-241/Beryllium           60                 1,620          0.6                   16.2
 Californium-252                   20                  540           0.2                   5.40
 Curium-244                        50                 1,350          0.5                   13.5
 Cobalt-60                         30                  810           0.3                   8.10
 Cesium-137                       100                 2,700           1                    27.0
 Gadolinium-153                   1000               27,000         10.0                   270
 Iridium-192                       80                 2,160          0.8                   21.6
 Plutonium-238                     60                 1,620          0.6                   16.2
 Plutonium-239/Beryllium           60                 1,620          0.6                   16.2
 Promethium-147                  40,000            1,080,000        400                   10,800
 Radium-226                        40                 1,080          0.4                   10.8
 Selenium-75                      200                 5,400          2.0                   54.0
 Strontium-90 (Yttrium-90)       1,000               27,000         10.0                   270
 Thulium-170                     20,000             540,000         200                   5,400
 Ytterbium-169                    300                 8,100           3                    81.0



                                              18
